APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit, No. 184042
(November 6, 2019). . . . . . . . . . . . App. 1
Appendix B Memorandum of Opinion and Order in
the United States District Court
Northern District of Ohio, Eastern
Division, No. 1:16 CV 2422
(September 20, 2018) . . . . . . . . . App. 13
Appendix C Memorandum of Opinion and Order in
the United States District Court
Northern District of Ohio, Eastern
Division, No. 1:16 CV 2422
(May 23, 2018). . . . . . . . . . . . . . . App. 35
Appendix D Opinion in the United States Court of
Appeals for the Sixth Circuit, No. 173436
(October 25, 2017) . . . . . . . . . . . . App. 41
Appendix E Memorandum of Opinion and Order in
the United States District Court
Northern District of Ohio, Eastern
Division, No. 1:16 CV 2422
(January 5, 2017) . . . . . . . . . . . . App. 46

App. 1

APPENDIX A
NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION
File Name: 19a0561n.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case No. 18-4042
[Filed November 6, 2019]
___________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff-Appellee,
)
)
v.
)
)
$99,500.00 U.S. CURRENCY SEIZED )
ON MARCH 20, 2016; $107,900.00
)
U.S. CURRENCY SEIZED ON JUNE )
17, 2016; and $57,999.00 U.S.
)
CURRENCY SEIZED ON AUGUST )
18, 2016,
)
)
Defendants,
)
)
SAMSON PRIMM,
)
)
Claimant-Appellant.
)
___________________________________ )

App. 2
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OHIO
BEFORE: BOGGS, BATCHELDER, and DONALD,
Circuit Judges.
BERNICE BOUIE DONALD, Circuit Judge.
Samson Primm wants to proceed on a claim to the
defendant monies that are now the subject of this
governmental forfeiture action. But because Primm no
longer has a colorable ownership, possessory, or
security interest in at least a portion of the defendant
properties, the district court dismissed his claim on
summary judgment for lack of Article III standing. We
affirm.
I.
This civil-forfeiture action involves three defendant
properties seized by law-enforcement officers and
Primm’s asserted interests in said properties. The
United States filed this forfeiture action on October 3,
2016, pursuant to 21 U.S.C. §881(a)(6), against the
defendant properties—namely, $99,500; $107,900; and
$57,999 in U.S. currency seized by law enforcement on
March 20, 2016; June 17, 2016; and August 18, 2016,
respectively. The government alleged that the
defendant properties constitute proceeds from illegal
drug trafficking, were furnished or intended to be
furnished in exchange for illegal drugs, and/or were
used or intended to be used to facilitate illegal drugtrafficking activities.
In response to the action, Primm filed a verified
claim “assert[ing] his absolute[] and unqualified[]

App. 3
ownership interest[] and his unqualified right (and
entitlement) to, and in,” the defendant properties and
stating that he was “in sole[] and exclusive possession”
of these monies when they were seized. He also filed a
separate answer that claimed sole ownership and
exclusive possession of the properties when they were
seized from him but, notably, denied all of the
government’s pertinent allegations regarding the
seizures thereof, including that the monies were taken
from his possession and that he won some of it while
gambling.
The United States moved to strike both claims,
arguing that Primm made only bald assertions of
ownership insufficient to meet the statutory
requirements of Rule G of the Federal Rules of Civil
Procedure’s Supplemental Rules for Admiralty or
Maritime Claims and Civil Forfeiture Actions. United
States v. $99,500.00 U.S. Currency, 699 F. App’x 542,
542 (6th Cir. 2017). The district court granted the
motion to strike, and Primm appealed. Id. Relying on
our decision in United States v. $31,000.00 in U.S.
Currency, 872 F.3d 342 (6th Cir. 2017) [hereinafter
$31,000.00 I], we reversed the district court’s holding,
reasoning that Primm’s verified claim of ownership was
sufficient to satisfy Article III standing requirements
and the procedural requirements of Rule G at the
pleading stage. United States v. $99,500.00 U.S.
Currency, 699 F. App’x at 543-44. We then remanded
the matter back to the district court. Id. at 544.
On remand, the district court held a casemanagement conference, where it set deadlines for
discovery and dispositive motions. On January 25,

App. 4
2018, the United States timely served special
interrogatories and requests for production of
documents to Primm’s counsel. The discovery sought
information about the nature of Primm’s interest in the
defendant monies, the source of the defendant monies,
and Primm’s legitimate sources of income, if any.
Primm did not respond to the discovery requests and,
instead, filed an “Opposition to Government’s First Set
of Interrogatories and Request for Production of
Documents.” In his opposition, Primm argued that he
was not required to respond to the requests until the
United States survived his motion to suppress and
proved that the defendant monies are subject to
forfeiture. Primm also attached an affidavit asserting
his Fifth Amendment right in response to the requests
but also implying (in conjunction with his opposition)
that he reserved the right to supplement his responses
after the district court ruled on his motion to suppress
and determined forfeitability of the seized properties.
On March 9, 2018, the district court entered an
order explaining that Primm’s assertions were not
supported by law and that discovery would proceed as
scheduled. The district court also ordered Primm to
clarify whether he was making a blanket refusal to
answer to the United States’ discovery requests based
upon his Fifth Amendment privilege against selfincrimination or if he intended to respond to the
outstanding requests. In response, Primm stated that
he was not making a “blanket refusal” and that he
would respond to any question that would not tend to
incriminate him. Primm ended his response, however,
by once again suggesting that he did not need to
respond to any discovery requests until after the

App. 5
government proves that the monies at issue were
lawfully seized and forfeitable.
With Primm still not responding to the discovery
requests, the government filed a motion to compel
Primm’s responses to the outstanding discovery, which
the district court granted on April 20, 2018, and
ordered Primm to respond to the requests by April 27,
2018. Again, Primm did not respond. Accordingly, the
United States, pursuant to Fed. R. Civ. P. 37(b)(2)(A),
moved to strike Primm’s claim and his answer for
failing to respond to its discovery requests. At that
point, Primm responded in opposition by stating that
he had all along asserted his Fifth Amendment
privilege in response “to all questions put to him, and,
[that] he will continue to do so”; he also asserted his
Fifth Amendment privilege in reference to his being
compelled to produce any documents. With it then clear
that Primm was asserting his Fifth Amendment
response to all discovery, the district court denied the
government’s motion to strike.
Thereafter, the United States filed a motion for
summary judgment on the issue of standing, arguing
that the district court should strike Primm’s verified
claim and answer, along with the naked assertions of
ownership therein, based upon Primm’s failure to
respond to discovery requests aimed at determining the
legitimacy of his claimed ownership interests. Primm
opposed the relief sought and filed a cross-motion for
summary judgment. The United States then filed, as
one document, a reply to its own motion and a response
to Primm’s motion. Upon consideration, the district
court struck Primm’s conclusory assertions of

App. 6
ownership in his verified claim and answer, granted
the United States’ motion for summary judgment on
the issue of standing based on Primm’s failure to
satisfy Article III, and denied Primm’s motion for
summary judgment.1
II.
“Generally, we review ‘a district court’s decision to
strike a claim in an in rem forfeiture action for an
abuse of discretion.’” $31,000.00, 872 F.3d at 347
(quoting United States v. One 2011 Porsche Panamera,
684 F. App’x 501, 506 (6th Cir. 2017)). We review de
novo, however, “‘[a] district court’s determination of a
claimant’s standing to contest a federal forfeiture
action.’” Id. (quoting United States v. Real Prop.
Located at 4527-4535 Mich. Ave., Detroit, Mich., 489 F.
App’x 855, 857 (6th Cir. 2012)). Moreover, this Court
reviews a district court’s grant of summary judgment
de novo. Bormuth v. Cty. of Jackson, 870 F.3d 494, 503
(6th Cir. 2017) (en banc).
III.
We hold that the district court did not err in finding
that Primm failed to meet his burden of establishing
Article III standing at the summary-judgment stage of
the proceeding below. In challenging the district court’s
summary-judgment ruling in favor of the United

1

Although the United States filed a motion for summary judgment
on June 5, 2018, the district court, thereafter, granted it leave to
file a motion for summary judgment on the issue of standing. The
latter motion is what the district court relied on in dismissing
Primm’s claims and is the subject of this appeal.

App. 7
States, Primm makes three primary arguments: (A) the
lower court’s ruling goes against the law of the case;
(B) the lower court improperly drew an adverse
inference against him based on his invocation of the
Fifth Amendment right against self-incrimination; and
(C) the lower court improperly sanctioned him for his
invocation of the right against self-incrimination,
because Fed. R. Civ. P. 26(b)(1) and (b)(5) limit the
scope of discovery to matters “not privileged.”
A.
Addressing Primm’s first argument, we hold that
the district court, in finding that Primm lacked
standing at summary judgment, did not go against the
law of the case. The law-of-the-case doctrine “provides
that courts’ earlier decisions ‘should continue to govern
the same issues in subsequent stages in the same
case.’” In re Blasingame, 920 F.3d 384, 392 (6th Cir.
2019) (quoting Musacchio v. United States, 136 S. Ct.
709, 716 (2016)). The rule applies after a case is
remanded to a trial court by an appellate court. United
States v. Twp. of Brighton, 282 F.3d 915, 919 (6th Cir.
2002).
In regard to Primm’s standing in this matter, this
court previously ruled that Primm’s verified claim of
ownership was sufficient to satisfy Article III standing
requirements and the procedural requirements of Rule
G at the pleading stage. $99,500.00 U.S. Currency, 699
F. App’x at 544. The district court’s most recent Article
III determination, however, was not made at the
pleading stage. On remand, the district court held a
case-management conference and set deadlines for
discovery and dispositive motions before ruling at the

App. 8
summary-judgment stage of the proceedings that
Primm did not have Article III standing. United States
v. $99,500 in U.S. Currency, 339 F. Supp. 3d 690, 693,
700 (N.D. Ohio 2018).
This Court’s determination of whether Primm met
his burden of establishing Article III standing and the
requirements of Rule G at the pleading stage, did not
preclude the United States from arguing, or the district
court from ruling, that he failed to show Article III
standing on summary judgment. United States v.
$31,000.00 in U.S. Currency, 774 F. App’x 288, 292-93
(6th Cir. 2019) [hereinafter $31,000.00 III]. Indeed, at
no point has this court held that Primm has standing
for summary-judgment purposes. Thus, Primm’s first
argument is without merit.
B.
Primm’s argument that the lower court improperly
drew an adverse inference against him because of his
invocation of his Fifth Amendment privilege against
self-incrimination also lacks merit. In ruling on the
United States’ summary-judgment motion below, the
district court stated as follows:
Claimant does not address the government’s
argument that the Court should strike his naked
assertion of ownership because he failed to
answer any discovery directed at determining
the legitimacy of that assertion. Instead, he
argues that the Court cannot draw an adverse
inference from the assertion of the privilege.
Because the government has not asked for an

App. 9
adverse inference, the Court need not address
this argument.
$99,500 in U.S. Currency, 339 F. Supp. 3d at 697 n.4.
As evidenced by the above excerpt, and through the
remainder of the district court’s opinion, the court
below did not consider, let alone make, any adverse
inferences as a result of Primm invoking his right
against self-incrimination.
To be certain, the district court struck Primm’s
conclusory assertions of ownership in his verified claim
and answer, leaving him with an unexplained claim of
possession. Id. at 697-700. As found by the district
court, such an unexplained claim of possession is
insufficient to meet the burden of establishing Article
III standing at the summary-judgment stage.2 See
United States v. $677,660.00 in U.S. Currency, 513 F.
App’x 531, 532 (6th Cir. 2013) (per curiam); see also
United States v. $ 515,060.42 in U.S. Currency, 152
F.3d 491, 498 (6th Cir. 1998). Thus, although the
district court struck Primm’s conclusory assertions of
ownership, the district court did not draw any adverse
inferences as a result of Primm’s invocation of his right
against self-incrimination.

2

Although Primm makes a cursory argument that the facts relied
upon by the United States in support of its motion for summary
judgment on the issue of standing were insufficient to carry its
burden of proof, we do not reach this issue, as Primm never met
his threshold burden of establishing Article III standing.

App. 10
C.
Moreover, we find no merit in Primm’s argument
that the district court abused its discretion by striking
his assertions of ownership from his verified claim and
answer, which he frames as an improper imposition of
a sanction based on a rightful assertion of a privilege,
in violation of Fed. R. Civ. P. 26. “As in any federal
suit, a claimant must have Article III standing” in an
in rem civil forfeiture proceeding. $31,000.00 I, 872
F.3d at 348. The burden to show standing in such
matters is on the claimant. Id. Courts assess “Article
III standing in civil forfeiture cases by requiring that ‘a
claimant must have a colorable ownership,
possessory[,] or security interest in at least a portion of
the defendant property.’” Id. (quoting $515,060.42 in
U.S. Currency, 152 F.3d at 497). At the summaryjudgment stage, a claimant must “present ‘some
evidence of ownership’ beyond the mere assertion of an
ownership interest in the property.” United States v.
$31,000 in U.S. Currency, No. 1:16 CV 1581, 2018 U.S.
Dist. LEXIS 86656, at *11–12 (N.D. Ohio May 23,
2018) [hereinafter $31, 000.00 II] (citing United States
v. Phillips, 883 F.3d 399, 403 (4th Cir. 2018)).
Below, the United States filed a motion for
summary judgment on the issue of standing,
requesting that the district court strike Primm’s
verified claim and answer, along with the naked
assertions of ownership therein, based upon Primm’s
failure to respond to discovery requests aimed at
determining the legitimacy of his claimed ownership
interests. In other words, the United States argued
that the district court should strike Primm’s conclusory

App. 11
assertions of ownership that came as a result of Primm
freely responding to questions that were advantageous
to his cause, given that he, thereafter, made a blanket
invocation of his Fifth Amendment right to avoid
answering questions relevant to his ownership
assertions.
The district court, finding merit in the argument,
struck Primm’s assertions of ownership. As held by the
district court below, as well as this court and our sister
circuits, where a claimant seeks to use the Fifth
Amendment to abuse or obstruct the discovery process,
trial courts may, to prevent prejudice to opposing
parties, adopt remedial procedures or impose sanctions,
which includes striking claims of ownership in a
verified claim or answer. $31,000.00 III, 774 F. App’x
288, 291-92; see $99,500 in U.S. Currency, 339 F. Supp.
3d at 697-99 (discussing cases). The reason why courts
do so, in such circumstances, is that the claimants’
claim of privilege “raises the core concern” that their
testimony could furnish them with what may be false
evidence and prejudice the government by depriving it
of any means of detecting the falsity. $99,500 in U.S.
Currency, 339 F. Supp. 3d at 698-99 (quotation
omitted) (quoting $31,000.00 II, 2018 U.S. Dist. LEXIS
86656, at *19); see also United States v. $133,420.00 in
U.S. Currency, 672 F.3d 629, 642 (9th Cir. Feb. 21,
2012).
As seen here, striking Primm’s assertions of
ownership left the record devoid of any claim of
ownership to the seized currency. With only an
unexplained claim of possession, Primm could not meet
his burden of establishing standing at the summary

App. 12
judgment stage. See $677,660.00 in U.S. Currency, 513
F. App’x at 532 (per curiam); see also $ 515,060.42 in
U.S. Currency, 152 F.3d at 498. Thus, the district court
did not abuse its discretion in striking Primm’s claim
of ownership in the defendant properties.
Regarding the remainder of Primm’s assertions
challenging the validity of the underlying seizures and
forfeiture, the court finds no error in the district court
not considering the arguments, as Primm did not meet
his threshold burden of showing Article III standing.
IV.
Because Primm no longer has a colorable
ownership, possessory, or security interest in at least
a portion of the defendant properties, he has not met
his burden of establishing standing under Article III,
precluding him from proceeding on a claim to the
defendant monies.
We affirm.

App. 13

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CASE NO. 1:16 CV 2422
JUDGE PATRICIA A. GAUGHAN
[Filed September 20, 2018]
________________________________
United States of America,
)
)
Plaintiff,
)
)
Vs.
)
)
$99,500 in U.S. Currency, et al.,
)
)
Defendants.
)
________________________________ )
Memorandum of Opinion and Order
INTRODUCTION
This is a civil forfeiture action. Pending before the
Court is the United States’ Motion for Summary
Judgment on the Issue of Standing (Doc. 50) and the
Cross-Motion for Summary Judgment (Doc. 52) filed by
claimant Samson Primm. For the reasons that follow,
the government’s motion is GRANTED, and claimant’s
cross-motion is DENIED.

App. 14
FACTS1
A. The defendant currencies
Claimant has a long criminal history relating to
drugs. In March of 2016, the Drug Enforcement
Administration (“DEA”) began investigating him for
drug trafficking and money laundering offenses. The
DEA received information that claimant was scheduled
for one-way air travel from Las Vegas, Nevada, to
Cleveland, Ohio, on March 20, 2016. A DEA special
agent observed him leaving the airport on this date.
The DEA then requested assistance from the Lorain
Police Department (“LPD”). An LPD officer conducted
a traffic stop of claimant’s vehicle for a window tint
violation. After speaking with claimant, the officer
requested that a K-9 officer respond to the scene. The
K-9 officer and his K-9 partner, Garp, arrived while the
warning citation for the window tint violation was
being written. Upon being deployed, Garp provided a
positive alert for a narcotic odor. Following the alert,
four bags were removed from the vehicle. Garp alerted
to a suitcase and backpack where stacks of money were
found. In total, $99,500 in U.S. currency was recovered.
Claimant claimed to have won the money at the
Cosmopolitan casino in Las Vegas.
On June 17, 2016, an Ohio State Highway Patrol
(“OSHP”) sergeant paced claimant’s vehicle traveling
at 85 miles per hour on the highway. A K-9 trooper
initiated a traffic stop. When he spoke with claimant,
1

The facts are taken from claimant’s verified claim and answer,
the government’s verified complaint, and the affidavit of DEA
Special Agent Joseph Harper.

App. 15
he smelled marijuana from inside the vehicle. He then
retrieved his K-9 partner, who provided a positive alert
for controlled substances. Two OSHP officers then
conducted a search of the vehicle, locating a jar that
contained marijuana in the center console. They also
found several bundles of U.S. currency inside the
vehicle and two suitcases in the back hatch that also
contained currency. In total, $107,900 was located in
the vehicle.
Pursuant to a state search warrant, law
enforcement authorities, including members of the
DEA and local law enforcement, executed a search of
claimant’s residence on August 18, 2016. The officers
observed jars containing marijuana in the residence.
After testing and confirming the presence of marijuana,
the investigators stopped the search and obtained a
state narcotics search warrant. The narcotics search
warrant named a number of items to be searched and
seized, including marijuana, narcotic drugs, money,
and weapons. Among other things, officers seized
$57,999 in U.S. currency.2
B. The forfeiture action
The government filed this forfeiture action on
October 3, 2016, pursuant to 21 U.S.C. § 881(a)(6),
alleging that the defendant currency (the $99,500,
$107,900, and $57,999 in U.S. currency seized by law
enforcement) constitutes proceeds from illegal drug
trafficking, was furnished or intended to be furnished
2

The government’s verified complaint does not allege that
claimant asserted ownership over the money that was seized on
June 17, 2016 and August 18, 2016.

App. 16
in exchange for illegal drugs, and/or was used or
intended to be used to facilitate illegal drug trafficking
activities. Notice of the forfeiture action was served on
claimant’s counsel, and warrants taking custody of the
seized funds were executed by the U.S. Marshal
Service.
In its verified complaint, the government alleges
that, between January of 2014 and August of 2016,
claimant lost approximately $59,500 while gambling at
the Cosmopolitan of Las Vegas. It also alleges that
claimant did not file Ohio personal income tax returns
for the years 2012, 2013, and 2015, and that his 2014
Ohio personal income tax return claimed a federal
adjusted gross income of $37,410. Finally, it alleges
that from January of 2014 to April of 2016, claimant
made a number of large expenditures on airline tickets,
hotels, cars, rental cars, sporting events, high-end
retail stores across the country, nightclubs, and
restaurants.
Claimant filed a verified claim swearing that he was
the “sole and absolute owner of the monies” and “was
in exclusive possession of these monies when they were
seized.” His separate answer claims sole ownership and
exclusive possession of the currency but then denies all
of the government’s pertinent allegations regarding the
seizure of the money, including that the currency was
taken from his possession and that he won the money
while gambling.
The government moved to strike both claims
because they raised only bald assertions of ownership.
It argued that such assertions were insufficient to meet
the statutory requirements of Rule G of the Federal

App. 17
Rules of Civil Procedure’s Supplemental Rules for
Admiralty or Maritime Claims and Civil Forfeiture
Actions (the “Supplemental Rules”). This Court granted
the motion to strike, and the claimants appealed.
Relying on its decision in United States v. $31,000 in
U.S. Currency, 872 F.3d 342(6th Cir. 2017), the Sixth
Circuit reversed. In $31,000 in U.S. Currency, the court
decided, as an issue of first impression in this circuit,
that “[a]t the pleading stage, a verified claim of
ownership is sufficient to satisfy Article III [standing
requirements] and the procedural requirements of Rule
G.” Id. at 351.
C. Discovery on remand
On remand, this Court held a case management
conference on January 11, 2018, and set a discovery
deadline of May 15, 2018, and a dispositive motion
deadline of June 15, 2018. The government served
special interrogatories and requests for production of
documents to claimant’s counsel on January 25, 2018.
The discovery sought information about the nature of
claimant’s interest in the defendant currencies, the
source of the defendant currencies, and claimant’s
legitimate sources of income, if any.
Claimant did not respond to the discovery requests.
Instead, he filed an “Opposition to Government’s First
Set of Interrogatories and Request for Production of
Documents.”3 In the opposition, he implied that he was
not required to respond to the requests until the
3

Claimant never filed a motion to stay this civil forfeiture
proceeding pursuant to 18 U.S.C. § 981(g)(2) or argue that it
applies to this case.

App. 18
government survives his motion to suppress and proves
that the defendant currencies are subject to forfeiture.
He also attached an affidavit stating that he was
asserting his Fifth Amendment right in response to the
requests but that also implied he was reserving the
right to supplement his responses after the Court ruled
on his motion to suppress and determined forfeitability
of the seized property. This Court entered an order on
March 9, 2018, explaining that the law did not support
claimant’s assertion that he can wait to respond to
discovery in this way and that discovery would proceed
as scheduled. Because it was not clear if claimant was
asserting a blanket Fifth Amendment privilege to the
discovery requests, the Court ordered the claimant to
clarify whether he was doing so or if he intended to
respond to the outstanding requests.
In his response to the Court’s order, claimant stated
that he would respond to any question that would not
tend to incriminate him. He ended his brief, however,
by once again suggesting that he did not need to
respond to any discovery until after the government
proves that the currency at issue was lawfully seized
and is forfeitable. He did not file any responses to the
government’s discovery requests.
The government then filed a motion to compel
claimant’s responses to the outstanding discovery. The
Court granted the motion on April 20, 2018, holding
that the Federal Rules of Civil Procedure applied to the
government’s discovery requests and that no authority
existed for claimant’s position that he did not have to
respond to the requests until after the government
proved that the property was lawfully seized and

App. 19
forfeitable. The Court ordered claimant to respond to
the requests by April 27, 2018, and noted that he could
assert the Fifth Amendment privilege against selfincrimination in response to the requests if he wished
to do so. Once again, claimant did not file any
responses.
The government next moved to strike claimant’s
claim and answer for failing to respond to its discovery
requests, relying on the discovery sanctions available
under Rule 37(b)(2)(A) of the Federal Rules of Civil
Procedure. Claimant filed an opposition in which he
stated that he had all along asserted his Fifth
Amendment privilege in response “to all questions put
to him, and, [that] he will continue to do so. To be sure,
he has also asserted his Fifth Amendment privilege
with reference to his being compelled to produce any
documents.” (Doc. 42, at 1). Because claimant had
finally made clear that he was asserting the Fifth
Amendment in response to all discovery, the Court
denied the government’s motion to strike.
The government thereafter filed a motion for
summary judgment on the merits. Later, it filed an
unopposed motion for leave to file a second motion for
summary judgment on the issue of standing. This
Court granted the motion for leave. The government’s
motion on standing, which claimant opposes, is now
before the Court. Claimant has also filed a cross-motion
for summary judgment, which the government opposes.
SUMMARY JUDGMENT STANDARD
Summary Judgment is appropriate when no
genuine issues of material fact exist and the moving

App. 20
party is entitled to judgment as a matter of law. Celotex
Corp. v. Catrett, 477 U.S. 317, 322-23 (1986) (citing
Fed. R. Civ. P. 56(c)); see also LaPointe v. UAW, Local
600, 8 F.3d 376, 378 (6th Cir. 1993). The burden of
showing the absence of any such genuine issues of
material facts rests with the moving party:
[A] party seeking summary judgment always
bears the initial responsibility of informing the
district court of the basis for its motion, and
identifying those portions of “the pleadings,
depositions, answers to interrogatories, and
admissions on file, together with affidavits,” if
any, which it believes demonstrates the absence
of a genuine issue of material fact.
Celotex, 477 U.S. at 323 (citing Fed. R. Civ. P. 56(c)). A
fact is “material only if its resolution will affect the
outcome of the lawsuit.” Anderson v. Liberty Lobby, 477
U.S. 242, 248 (1986). Accordingly, the nonmoving party
must present “significant probative evidence” to
demonstrate that “there is [more than] some
metaphysical doubt as to the material facts.” Moore v.
Philip Morris Cos., Inc., 8 F.3d 335, 340 (6th Cir.1993).
The nonmoving party may not simply rely on its
pleading, but must “produce evidence that results in a
conflict of material fact to be solved by a jury.” Cox v.
Kentucky Dep’t. of Transp., 53 F.3d 146, 150 (6th Cir.
1995).
The evidence, all facts, and any inferences that may
permissibly be drawn from the facts must be viewed in
the light most favorable to the nonmoving party.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 587 (1986); Eastman Kodak Co. v. Image

App. 21
Technical Servs., Inc., 504 U.S. 451, 456 (1992).
However, “[t]he mere existence of a scintilla of evidence
in support of the plaintiff’s position will be insufficient;
there must be evidence on which the jury could
reasonably find for the plaintiff.” Anderson, 477 U.S. at
252.
Summary judgment should be granted if a party
who bears the burden of proof at trial does not
establish an essential element of his case. Tolton v.
American Biodyne, Inc., 48 F.3d 937, 941 (6th Cir.
1995) (citing Celotex, 477 U.S. at 322). Moreover, if the
evidence is “merely colorable” and not “significantly
probative,” the court may decide the legal issue and
grant summary judgment. Anderson, 477 U.S. at 24950 (citation omitted).
LAW AND ANALYSIS
A. The government’s motion for summary
judgment
In its motion for summary judgment, the
government argues that claimant has failed to meet his
burden of establishing standing at the summary
judgment stage. The Court agrees.
1. Standing in civil forfeiture cases
In a civil forfeiture action, a person who wishes to
intervene and assert an interest in the property must
file two responsive pleadings: a verified claim and an
answer. 18 U.S.C. § 983(a)(4)(A), (B); Supp. R. G(5).
The verified claim must “identify the specific property
claimed,” “identify the claimant and state the
claimant’s interest in the property,” and “be signed by

App. 22
the claimant under penalty of perjury.” Supp. R.
G(5)(a)(i). Supplemental Rule G(6)(a) allows the
government to serve special interrogatories seeking
information related to the claimant’s identity and
relationship to the defendant currency. The purpose of
the rule is “to permit the government to file limited
interrogatories at any time after the claim is filed to
gather information that bears on the claimant’s
standing.” Supp. R. G advisory committee’s note
(subdivision (6)).
At any time before trial, the government may move
to strike the claimant’s claim or answer “(A) for failing
to comply with Rule G(5) or (6), or (B) because the
claimant lacks standing.” Supp. R. G(8)(c). The motion
“may be presented as a motion for judgment on the
pleadings or as a motion to determine after a hearing
or by summary judgment whether the claimant can
carry the burden of establishing standing by a
preponderance of the evidence.” Supp. R. G(8)(c)(ii)(B).
As in any case, standing is a threshold matter in an
in rem civil forfeiture proceeding. See, e.g., United
States v. $8,440,190.00 in U.S. Currency, 719 F.3d 49,
57 (1st Cir. 2013). Thus, before the Court can address
any other issue that claimant raises, he must meet his
burden of establishing Article III standing at this stage
of the proceedings.
As an initial matter, the Court rejects claimant’s
argument that the government cannot challenge
standing because the Sixth Circuit’s decision on the
issue is “law of the case.” (Doc. 52, at 6). This argument
is incorrect because the court held only that the
claimant had Article III standing at the pleadings

App. 23
stage. See McKenzie v. BellSouth Telecommunications,
Inc., 219 F.3d 508, 513 (6th Cir. 2000) (“Accordingly,
our holding on a motion to dismiss does not establish
the law of the case for purposes of summary judgment,
when the complaint has been supplemented by
discovery.”).
The Sixth Circuit’s conclusion rested entirely on its
earlier decision in $31,000 in U.S. Currency, which,
like this case, was at the pleading stage when it was
dismissed. As the Sixth Circuit explained in $31,000 in
U.S. Currency, its decision related to the claimant’s
ability to establish standing at that early stage, not at
a later stage of the proceedings where the
preponderance of the evidence burden applies:
For the sake of completeness, we note that we
have construed the government’s motion to
strike as one made “on the pleadings” pursuant
to Rule G(8)(c)(ii)(B)….We do not address the
“preponderance of the evidence” burden of proof
here, because that standard is inapplicable in a
review of the pleadings in which the claimant
need only allege, rather than prove, the facts
establishing his standing to pursue the claim.
Cf. Lujan, 504 U.S. at 561-62, 112 S.Ct. 2130;
$196,969 U.S. Currency, 719 F.3d at 646.
United States v. $31,000.00 in U.S. Currency, 872 F.3d
342, 352 n.3 (6th Cir. 2017). See Lujan v. Defenders of
Wildlife, 504 U.S. 555, 561, 112 S.Ct. 2130 (1992)
(holding that the elements of standing “must be
supported in the same way as any other matter on
which the plaintiff bears the burden of proof, i.e., with
the manner and degree of evidence required at the

App. 24
successive stages of the litigation”). Because the Sixth
Circuit’s decision was limited to a determination of
whether claimant met his burden of establishing
Article III standing and the requirements of Rule G at
the pleadings stage, it does not preclude the
government from arguing that he fails to meet his
burden on summary judgment.
To meet Article III’s case-or-controversy
requirement, a claimant must establish the three
elements of standing: an injury in fact, a causal
connection between the injury and the conduct
complained of, and a likelihood that the injury will be
redressed by a favorable decision. Lujan, 504 U.S.at
560–61. The evidentiary requirements for establishing
standing vary depending on the stage of the litigation.
Id. at 561. To withstand a motion for summary
judgment on lack of standing, a plaintiff cannot rely on
mere allegations but rather must “‘set forth’ by
affidavit or other evidence ‘specific facts,’ which for
purposes of the summary judgment motion will be
taken to be true.” Id. (citation omitted).
Applying these principles to civil forfeiture actions,
courts have used the “‘colorable interest’ test, which
requires a claimant to present ‘some evidence of
ownership’ beyond the mere assertion of an ownership
interest in the property.” United States v. Phillips, 883
F.3d 399, 403 (4th Cir. 2018) (noting that “[e]very court
of appeals that has addressed the issue in the last
twenty years has used the ‘colorable interest’ test”)
(citing cases from the First, Second, Third, Fifth, Sixth,
Seventh, Eighth, Ninth, Tenth, and D.C. Circuits).
Under the colorable interest test, “Article III’s standing

App. 25
requirement is … satisfied because an owner or
possessor of property that has been seized necessarily
suffers an injury that can be redressed at least in part
by the return of the seized property.” United States v.
$515,060.42, 152 F.3d 491, 497 (6th Cir.1998).
In cases such as this one where a claimant asserts
an ownership interest—as opposed to a possessory
interest—”[t]he required ownership interest can be
demonstrated in a variety of ways, ‘including showings
of actual possession, control, title and financial stake.”
U.S. v. $148,840.00 in U.S. Currency, 521 F.3d 1268,
1275 (10th Cir. 2008). Courts consistently hold that
claimants who assert an ownership interest in property
that was seized from their possession have Article III
standing at the summary judgment stage to challenge
the forfeiture. See, e.g., id. (holding that claimant had
standing at summary judgment stage “because [his]
assertion of ownership is assumed to be true on this
record, and because the currency was indisputably
seized from a vehicle that Austin was driving”); United
States v. $38,570 in U.S. Currency, 950 F.2d 1108,
1112-3 (5th Cir. 1992) (holding that claimant who
asserted an ownership interest had constitutional
standing to challenge the forfeiture of currency seized
from a car that he was driving); see also U.S. v.
$133,420.00 in U.S. Currency, 672 F.3d 629, 640 (9th
Cir. 2012) (“[An] assertion of ownership, combined with
[the claimant’s] possession of the currency at the time
it was seized, would be enough to establish [his]
standing for purposes of a motion for summary
judgment.”).

App. 26
2. Effect of claimant invoking Fifth Amendment in
response to all discovery requests
Here, assuming the Court were to consider all of the
evidence in the record, it would include the claimant’s
unequivocal claim of ownership in his verified claim
and answer and the government’s own verified
complaint stating that the currency was found in his
possession. The government, however, argues that the
Court should not consider the claimant’s assertion of
ownership in his verified claim and answer because he
chose to exercise his Fifth Amendment privilege rather
than respond to the government’s discovery requests,
which were directed at determining the legitimacy of
the claimant’s naked assertions of ownership. Without
evidence of a claim of ownership, claimant cannot
establish standing.4
Circuit courts agree that “a district court may strike
conclusory testimony if the witness asserts the Fifth
Amendment privilege to avoid answering relevant
questions, yet freely responds to questions that are
advantageous to his cause.” $148,840.00 in U.S.
Currency, 521 F.3d at 1277 (citing United States v.
4003–4005 5th Ave., 55 F.3d 78, 84–85 (2d Cir.1995) (“If
it appears that a litigant has sought to use the Fifth
Amendment to abuse or obstruct the discovery process,
4

Claimant does not address the government’s argument that the
Court should strike his naked assertion of ownership because he
failed to answer any discovery directed at determining the
legitimacy of that assertion. Instead, he argues that the Court
cannot draw an adverse inference from the assertion of the
privilege. Because the government has not asked for an adverse
inference, the Court need not address this argument.

App. 27
trial courts, to prevent prejudice to opposing parties,
may adopt remedial procedures or impose sanctions.”);
United States v. Parcels of Land, 903 F.2d 36, 43 (1st
Cir.1990) (holding in a civil forfeiture action that “a
witness’ direct testimony can be stricken if she invokes
the fifth amendment on cross-examination to shield
that testimony from scrutiny”)); see also U.S. v.
$110,873.00 in U.S. Currency, 159 Fed. Appx. 649, 653
(6th Cir. 2005) (“[Claimant] had an opportunity to
present his side of the case, and he simply chose to
remain silent—a perfectly constitutional option but one
that he may not leverage into a basis for avoiding the
requirements of Rule 56 of the Federal Rules of Civil
Procedure.”); United States v. Certain Real Property
566 Hendrickson Boulevard, 986 F.2d 990, 996 (6th
Cir.1993) (“Claimant cannot avoid completely his Rule
56 burden by merely asserting a Fifth Amendment
privilege.”).
In $133,420.00 in U.S. Currency, for example, the
claimant invoked his Fifth Amendment privilege to
avoid answering an interrogatory question as to the
“date(s), time, place and manner in which the
defendant currency [ ] was obtained” and the
“circumstances of each transaction by which [he]
acquired or obtained any interest in the defendant
currency.” 672 F.3d at 636. He did, however, provide a
limited response stating that he was the “owner and
possessor of said property, with a right to exercise
dominion and control over said property.” Id. at 637.
Because he had frustrated the government’s attempts
to test the veracity of his claim of ownership, the
district court struck this response, which left him with
no evidence that he had made a claim of ownership to

App. 28
the property. Id. Without a claim of ownership, he
could not establish standing, so the district court
granted summary judgment in favor of the
government.5 The Ninth Circuit affirmed, agreeing that
the claimant had “impaired the truth-seeking function
of the judicial process” by invoking the Fifth
Amendment in response to the government’s
interrogatories. Id. at 642. As such, the district court
did not abuse its discretion in striking the claimant’s
response.
The Tenth Circuit has also noted that a district
court has the discretion to strike a claim of ownership
where a claimant chooses to invoke the Fifth
Amendment privilege rather than respond to the
government’s discovery regarding how he came into
such ownership. In $148,840.00 in U.S. Currency, the
claimant testified in his deposition that the currency,
which had been seized from a vehicle that he was
driving, was his. He invoked the Fifth Amendment,
however, when the government attempted to discover
the nature of his ownership. The government moved for
summary judgment, arguing that the claimant failed to
establish standing. It did not move to strike the
claimant’s deposition testimony regarding his claim of
ownership, so the district court considered the
testimony in ruling on the motion. Because the
claimant had made a claim of ownership and the
money was seized from a vehicle that he was driving,

5

His verified claim asserted that he had an “ownership and/or
possessory” interest in the seized currency, which was insufficient
to establish standing because it did not make clear whether he was
asserting a possessory interest or an ownership interest. Id. at 640.

App. 29
the court held that he had standing. The Tenth Circuit
affirmed because the evidence remained in the record,
but explained that “[t]his would, of course, be a
different case if the district court had exercised its
discretion to strike Austin’s claim of ownership to the
currency in light of his repeated invocation of the Fifth
Amendment privilege.” 521 F.3d at 1277.
On remand in $31,000 in U.S. Currency, this Court
struck the claimants’ claim of ownership because they
repeatedly invoked the Fifth Amendment in response
to the government’s discovery requests:
Here, the Court agrees with the government
that claimants should not be permitted to use
the Fifth Amendment as a way of frustrating the
government’s attempt to determine the nature of
their asserted ownership interest. Indeed, in
rejecting the government’s argument that a
claimant should be required to spell out his
interest in the seized property at the outset of a
case, the Sixth Circuit specifically noted that the
government has at its disposal special
interrogatories that are for the very purpose of
discovering the veracity of a claim of ownership:
“We have no doubt that the lawyers of the
United States Attorney’s Offices within the
Sixth Circuit have the capacity to draft useful
interrogatories that will either confirm a
claimant’s interest in the res or expose the
futility of the claim.” $31,000 in U.S. Currency,
872 F.3d at 354. By repeatedly invoking the
Fifth Amendment, however, the claimants have
obstructed the discovery process and made it

App. 30
impossible for the government to use special
interrogatories or any other type of discovery to
test the truthfulness of their naked assertions of
ownership. See also United States v. Parcels of
Land, 903 F.2d 36, 43 (1st Cir. 1990) (“[T]he
power to strike is grounded in the principle that
once a witness testifies, she may not invoke the
fifth amendment privilege so as to shield that
testimony from scrutiny. To allow her to do so
would constitute a positive invitation to mutilate
the truth.”) (internal quotations and citations
omitted).
Because claimants’ claim of privilege “raises
the core concern” that their testimony could
furnish them with what may be false evidence
and prejudice the government by depriving it of
any means of detecting the falsity, the Court will
strike their assertions of ownership in their
verified claims. $133,420.00 in U.S. Currency,
672 F.3d at 642. That leaves the record devoid of
any claim of ownership to the seized currency.
Without a claim of ownership, the claimants are
unable to meet their burden of establishing
standing at the summary judgment stage.
United States v. $31,000 in U.S. Currency, No. 1:16 CV
1581, at 13-14 (N.D. Ohio May 23, 2018); see also
United States v. $23,000 in U.S. Currency, No. 16 CV
2140 (N.D. Ohio June 19, 2018) (Nugent, J.) (granting
summary judgment to government where claimant
invoked Fifth Amendment in response to government’s
special interrogatories and provided no other form of
evidence to support his claim of ownership).

App. 31
Claimant in this case makes a naked claim of
ownership as to two of the amounts at issue (the
$107,900 seized on June 17, 2016 and the $57,999
seized on August 18, 2016)–he has never stated how or
where he earned this money. Although he claimed to
have won the $99,500 seized on March 20, 2016 while
gambling at the Cosmopolitan, the government’s
verified complaint alleges that he actually lost $59,500
at the casino. In addition, it alleges that he filed no
Ohio personal income tax returns for 2012, 2013, and
2015, and that his 2014 Ohio personal income tax
return claimed a federal adjusted gross income of only
$37,410. Thus, its discovery requests were properly
aimed at determining whether claimant’s assertion of
ownership was legitimate or fraudulent. Indeed, the
Sixth Circuit recognized in $31,000 in U.S. Currency
that the government has every right to propound
interrogatories to “either confirm a claimant’s interest
in the res or expose the futility of the claim.” 872 F.3d
at 354. See also $133,420.00 in U.S. Currency, 672 F.3d
at 642 (“The issue of standing is subject to adversarial
testing under Supplemental Rule G(6)(a), which gives
the government the right to question the claimant
regarding the claimant’s identity and relationship to
the defendant property, and to gather information that
bears on the claimant’s standing[.]”). If the claimant
were found to have standing even after he refused to
answer any of the government’s discovery requests that
bear on standing, that would deprive the government
of the adversarial testing to which it is entitled and
simply take claimant at his conclusory word.
As this Court found in $31,000 in U.S. Currency,
claimant’s assertion of privilege “raises the core

App. 32
concern” that his testimony could furnish him with
what may be false evidence and prejudice the
government by depriving it of any means of detecting
the falsity. $133,420.00 in U.S. Currency, 672 F.3d at
642. The Court therefore strikes his conclusory
assertions of ownership in his verified claim and
answer. That leaves him with an unexplained claim of
possession, which is insufficient to meet his burden of
establishing standing at the summary judgment stage.
As noted, claimant’s primary argument with respect
to standing is that the Sixth Circuit’s decision was law
of the case. The rest of his response raises issues that
the Court need not consider because he lacks standing
(e.g., the forfeiture violates the Takings Clause of the
Fifth Amendment and the Excessive Fines Clause of
the Eighth Amendment; his Fourth Amendment rights
were violated during the seizures; and the complaint
fails to connect the defendant currencies with any
criminal offense).
B. Claimant’s motion for summary judgment6
In his motion for summary judgment, claimant
contends that this Court does not have in rem
jurisdiction over the defendant currencies because the
State of Ohio has in rem jurisdiction over them. This is
incorrect. It is well established that “the court first
assuming jurisdiction over the property may maintain

6

Claimant again argues in his motion for summary judgment that
the currencies were not lawfully seized and that the government
cannot show that the currency was related to any criminal offense.
Because claimant lacks standing, the Court need not address these
issues.

App. 33
and exercise that jurisdiction to the exclusion of the
other.’ ... Hence, ‘a court cannot exercise jurisdiction
over a res that is already subject to the in rem
jurisdiction of another court.’” United States v.
Cunningham, 520 F. App’x 413, 415 (6th Cir. 2013)
(quoting Penn General Casualty Co. v. Pennsylvania,
294 U.S. 189, 195, 55 S.Ct. 386, 79 L.Ed. 850 (1935);
United States v. Certain Real Property 566 Hendrickson
Blvd., 986 F.2d 990, 993 (6th Cir.1993)). Thus, where
a federal district court is the first to assume
jurisdiction over the currency, it has in rem
jurisdiction. Id. This is true even if the property was
originally seized by state officers and held by the state
prior to the United States ultimately taking possession.
U.S. v. $22,832.00 in U.S. Currency, 2013 WL 4012712
(N.D. Ohio Aug. 6, 2013) (citing United States v.
$174,206.00 in U.S. Currency, 320 F.3d 658, 660 (6th
Cir. 2003) (“[t]he mere fact that the res was at one
point in the state’s possession does not imply that it
was the basis of the state court’s jurisdiction”).
In this case, the state never instituted an in rem
forfeiture action against any of the defendant
currencies. Accordingly, the state never had in rem
jurisdiction over the properties. Because this Court was
the first to assume jurisdiction over the currencies, it
has in rem jurisdiction.
CONCLUSION
For the foregoing reasons, the claimant lacks
standing to contest the forfeiture of the defendant
currencies. The United States’ Motion for Summary
Judgment on the Issue of Standing (Doc. 50) is,

App. 34
therefore, GRANTED. Claimant’s Motion for Summary
Judgment (Doc. 52) is DENIED.
IT IS SO ORDERED.
/s/ Patricia A. Gaughan
PATRICIA A. GAUGHAN
United States District Court
Chief Judge
Dated: 9/20/18

App. 35

APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CASE NO. 1:16 CV 2422
JUDGE PATRICIA A. GAUGHAN
[Filed May 23, 2018]
________________________________
United States of America,
)
)
Plaintiff,
)
)
Vs.
)
)
$99,500 in U.S. Currency Seized
)
on March 20, 2016, et al.,
)
)
Defendants.
)
________________________________ )
Memorandum of Opinion and Order
INTRODUCTION
This matter is before the Court upon Plaintiff
United States of America’s Motion to Strike Claim and
Answer for Failure to Respond to Discovery Requests
(Doc. 40). This is a civil forfeiture action. For the
following reasons, the Government’s motion is
DENIED.

App. 36
On January 11, 2018, this Court held a case
management conference and set a non-expert discovery
deadline of May 15, 2018. Thereafter, on January 25,
2018, the Government served interrogatories and
requests for production of documents on Claimant
Samson Primm. Claimant’s responses were due on
February 28, 2018. Claimant did not respond to the
discovery requests and instead filed an “Opposition to
Government’s First Set of Interrogatories and Request
for Production of Documents.” In his opposition,
Claimant implied that he was not required to respond
to the Government’s discovery requests until the
Government survives his motion to suppress and
proves that the property at issue is subject to
forfeiture. He also filed an affidavit stating that he was
asserting his Fifth Amendment right in response to
discovery but that also implied that he was reserving
the right to supplement his discovery responses after
the Court ruled on the motion to suppress and
determined forfeitability of the seized property. The
Court issued an order on March 9, 2018, explaining
that the law did not support Claimant’s assertion that
he can wait to respond to discovery in this way and
that discovery would proceed as scheduled. Because it
was not clear if Claimant was asserting a blanket Fifth
Amendment privilege to the Government’s discovery
requests, the Court ordered Claimant to clarify, within
seven days, whether he was doing so or if he instead
intended to respond to the outstanding requests.
On March 16, 2018, Claimant filed his response to
the Court’s order in which he stated that he would
respond to any question that would not tend to
incriminate him: “So let’s be clear, the Claimant will

App. 37
answer any and all questions put to him provided the
answer to the questions will not tend to incriminate
him.” (Doc. 34, at 1). He ended his brief, however, by
once again suggesting that he did not need to respond
to any discovery until after the government proves that
the items at issue were lawfully seized and are
forfeitable to the government. (Id. at 4). Claimant did
not file any responses to the Government’s discovery
requests.
On March 21, 2018, the Government filed a motion
to compel discovery. This Court granted the motion,
explaining that the Federal Rules of Civil Procedure
applied to the discovery dispute and that there is no
authority for Claimant’s position that he need not
respond to any discovery requests until the
Government shows that the property was lawfully
seized and is subject to forfeiture. It ordered Claimant
to respond to the Government’s discovery requests on
or before April 27, 2018. The Court noted that, “[i]f
Claimant wishes to assert the Fifth Amendment
privilege against self incrimination in response to the
discovery requests, he is free to do so.” (Doc. 39, at 3).
Claimant did not file any responses by the date
ordered.
The Government filed its motion to strike now
pending before the Court on May 7, 2018. It asks the
Court to strike Claimant’s verified claim and answer as
a discovery sanction for failing to respond to discovery.
(Doc. 40, at 5) (quoting Federal Rule of Civil Procedure
37(b)(2)(A) (iii) (“If a party...fails to obey an order to
provide or permit discovery..., the court where the
action is pending may issue further just orders. They

App. 38
may include the following...striking pleadings in whole
or in part[.]”). Claimant filed an opposition to the
motion to strike in which he states:
If one thing here seems clear enough, it has to be
that counsel for the Claimant is ill-equipped to
make a simple point. This must be so, otherwise
counsel would have by now made it clear that
his client has been convinced, that his Fifth
Amendment Right of self-incrimination applies
and works even in the Northern District of Ohio,
and that he has the right to assert it in this
Forfeiture case. Indeed, he has done so with
reference to all questions put to him, and, he
will continue to do so. To be sure, he has also
asserted his Fifth Amendment privilege with
reference to his being compelled to produce any
documents.
(Doc. 42, at 1).
Claimant is absolutely correct that his filings have
not made clear that he intended to assert a blanket
Fifth Amendment privilege in response to discovery.
Both this Court and the Government acknowledged
that he had a right to do so but explained on several
occasions that Claimant’s filings did not make clear
that this was his intent. Indeed, this Court ordered him
to clarify whether he intended to invoke the Fifth
Amendment in response to all discovery. Rather than
clarifying his intent, Claimant’s filings continued to
confuse the issue by suggesting that he would respond
to all non-incriminating questions but also stating that
he would assert the Fifth Amendment until the
Government proved that the items were lawfully seized

App. 39
and subject to forfeiture. Complicating matters even
more, he failed to comply with the Court’s direct order
to respond to the Government’s discovery requests by
April 27, 2018.
Out of an abundance of caution, however, the Court
will construe Claimant’s response to the Government’s
motion to strike as a response to the Government’s
discovery requests. In it, he has finally made
sufficiently clear that he has asserted the Fifth
Amendment in response to all of the Government’s
discovery requests. As the Court has said several times,
that is his right. Of course, discovery is now closed, and
as this case proceeds, he must bear the consequences of
having invoked the Fifth Amendment rather than
respond to any of the Government’s discovery requests.
See, e.g., U.S. v. $110,873.00 in U.S. Currency, 159 Fed.
Appx. 649, 652-53 (6th Cir. 2005) (“A litigant may not
invoke the Fifth Amendment to avoid answering
questions in discovery, then cry foul when the absence
of evidence in favor of the litigant requires summary
judgment to be entered against him.”); United States v.
4003–4005 5th Ave., 55 F.3d 78, 84–85 (2d Cir.1995) (“If
it appears that a litigant has sought to use the Fifth
Amendment to abuse or obstruct the discovery process,
trial courts, to prevent prejudice to opposing parties,
may adopt remedial procedures or impose sanctions.”);
U.S. v. $148,840.00 in U.S. Currency, 521 F.3d 1268,
1277 (10th Cir. 2008) (“[A] district court may strike
conclusory testimony if the witness asserts the Fifth
Amendment privilege to avoid answering relevant
questions, yet freely responds to questions that are
advantageous to his cause.”).

App. 40
The Court is disturbed by the amount of time that
both the Court and the Government have had to
expend on this issue when Claimant could have filed a
response months ago that made clear that he was
invoking the Fifth Amendment in response to all
discovery. Nevertheless, Court finds that striking his
claim and answer would be too harsh of a sanction in
these circumstances. Thus, the United States’ Motion
to Strike Claim and Answer for Failure to Respond to
Discovery Requests is DENIED.
IT IS SO ORDERED.
/s/ Patricia A. Gaughan
PATRICIA A. GAUGHAN
Chief Judge
United States District Court
Dated: 5/23/18

App. 41

APPENDIX D
NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION
File Name: 17a0586n.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 17-3436
[Filed October 25, 2017]
________________________________
UNITED STATES OF AMERICA, )
)
Plaintiff – Appellee,
)
)
v.
)
)
$99,500.00 U.S. CURRENCY
)
SEIZED ON MARCH 20, 2016;
)
$107,900.00 U.S. CURRENCY
)
SEIZED ON JUNE 17, 2016;
)
$57,999.00 U.S. CURRENCY
)
SEIZED ON AUGUST 18, 2016,
)
)
Defendants,
)
)
SAMSON PRIMM,
)
)
Claimant – Appellant.
)
________________________________ )

App. 42
On Appeal from the United States District Court for
the Northern District of Ohio
Before: GUY, MOORE, and ROGERS, Circuit
Judges.
PER CURIAM. Samson Primm, the claimant in
this in rem civil forfeiture action, appeals from the
district court’s orders striking his verified claim for
lack of standing and forfeiting certain U.S. currency
pursuant to 21 U.S.C. § 881(a)(6). Because the district
court’s rationale for striking Primm’s claim was
expressly rejected by this court in United States v.
$31,000 in U.S. Currency, 872 F.3d 342 (6th Cir. 2017),
we REVERSE the order granting the government’s
motion to strike Primm’s claim and REMAND for
further proceedings consistent with this opinion.
I.
The government sought forfeiture pursuant to 21
U.S.C. § 881(a)(6), alleging that the defendant property
constituted proceeds from illegal drug trafficking, was
furnished or intended to be furnished in exchange for
illegal drugs, and/or was used or intended to be used to
facilitate illegal drug trafficking activities. The
complaint alleged that an investigation of Samson
Primm for drug trafficking and money laundering
offenses led to the seizure of: (1) $99,500 in cash from
Primm’s SUV when he was stopped by the Lorain
Police Department on March 20, 2016; (2) $107,900 in
cash from Primm’s SUV after he was stopped by the
Ohio State Highway Patrol on June 17, 2016; and
(3) $57,999 in cash when state search warrants were
executed at Primm’s residence on August 18, 2016.

App. 43
Notice of the forfeiture action was served on Primm’s
counsel, and warrants taking custody of the seized
funds were executed by the U.S. Marshal Service.
Primm filed a verified claim swearing that he was
the “sole and absolute owner of the monies” and “was
in exclusive possession of these monies when they were
seized.” Primm’s separate answer also asserted sole
ownership and exclusive possession of the currency.
Days later, the government moved to strike Primm’s
claim on the grounds that his “naked assertion of
ownership or possession” did not satisfy the pleading
requirements of Rule G(5)(a)(i)(B) of the Supplemental
Rules for Admiralty or Maritime Claims and Asset
Forfeiture Actions (“Supplemental Rules”). Opposing
the motion, Primm argued, in part, that his pleadings
were sufficient to establish standing to challenge the
seizures on the merits. The district court granted the
government’s motion, finding that Primm’s pleadings
failed to establish either Article III standing or
statutory standing under Supplemental Rule G. Having
stricken the only claim, the district court granted the
government’s motion for entry of a final order of
forfeiture with respect to the defendant currency. This
appeal followed.1
II.
A decision striking a claim in an in rem forfeiture
action is generally reviewed for abuse of discretion, but
1

Primm’s earlier appeal of the order striking his claim was
dismissed by this court for lack of jurisdiction because the order
did not finally resolve the litigation and was not otherwise
immediately appealable.

App. 44
the district court’s determination of a claimant’s
standing to contest the forfeiture is reviewed de novo.
See $31,000 in U.S. Currency, 872 F.3d at 347 (citing
cases). At the pleading stage, the material allegations
made in the verified claim are taken as true and are
liberally construed in favor of the claimant. Id. (quoting
United States v. Real Prop. Located at 4527-4535
Michigan Ave., Detroit, Mich., 489 F. App’x 855, 857
(6th Cir. 2012)).
For Article III standing in civil forfeiture cases, “a
claimant must have a colorable ownership, possessory
or security interest in at least a portion of the
defendant property.” United States v. $515,060.42 in
U.S. Currency, 152 F.3d 491, 497 (6th Cir. 1998).
However, as a matter of first impression, this court
held in $31,000 in U.S. Currency that a verified claim
of ownership is sufficient to satisfy Article III at the
pleading stage. $31,000 in U.S. Currency, 872 F.3d at
351 (agreeing with United States v. $196,969 in U.S.
Currency, 719 F.3d 644, 647 (7th Cir. 2013)). Thus,
Primm’s claim asserting sole ownership of the cash
that is the subject of this forfeiture action sufficiently
alleged Article III standing.
In addition, a claimant who wishes to contest an in
rem forfeiture also must satisfy the requirements of
Supplemental Rule G in order to have statutory
standing. Id. at 349 (citing cases). Any deviation from
the requirements deprives the claimant of statutory
standing. Id. (citing One 2011 Porsche Panamera, 684
F. App’x 501, 506-08 (6th Cir. 2017)). This case centers
on the requirements of Rule G(5)(a)(i), which provides
that a claim must: “(A) identify the specific property

App. 45
claimed; (B) identify the claimant and state the
claimant’s interest in the property; (C) be signed by the
claimant under penalty of perjury; and (D) be served on
the government attorney designated under Rule
G(4)(a)(ii)(C) or (b)(ii)(D).” Rule G provides, in part,
that the government may move to strike a claim or
answer “for failing to comply with Rule G(5) or (6).”
Supplemental Rule G(8)(c)(i)(A).
The government argued that Primm’s claim did not
satisfy the minimum pleading standards of Rule
G(5)(a)(i)(B) because his naked assertion of ownership
failed to adequately “state the claimant’s interest in the
property.” The district court agreed. Since then,
however, this court expressly rejected the same
arguments and held that: “At the pleading stage, a
verified claim of ownership is sufficient to satisfy
Article III and the procedural requirements of Rule G.”
$31,000 in U.S. Currency, 872 F.3d at 351 (emphasis
added). Bound by that decision, which has equal
application here, we find Primm’s claim should not
have been stricken for failure to comply with Rule
G(5)(a)(i)(B).
Accordingly, the district court’s order granting the
government’s motion to strike is REVERSED and the
case is REMANDED for further proceedings consistent
with this opinion.

App. 46

APPENDIX E
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CASE NO. 1:16 CV 2422
JUDGE PATRICIA A. GAUGHAN
[Filed January 5, 2017]
________________________________
United States of America,
)
)
Plaintiff,
)
)
Vs.
)
)
$99,500 in U.S. Currency Seized
)
on March 20, 2016, et al.,
)
)
Defendants.
)
________________________________ )
Memorandum of Opinion and Order
INTRODUCTION
This matter is before the Court upon Plaintiff
United States of America’s Motion to Strike Claim of
Samson Primm (Doc. 6). This is a civil forfeiture action
against U.S. currency that was seized by law
enforcement officials on March 20, 2016; June 17, 2016;

App. 47
and August 18, 2016. For the following reasons, the
government’s motion is GRANTED.
BACKGROUND
The government alleges the following facts in its
complaint in forfeiture (Doc. 1):
FORFEITURE
17. In March, 2016, and based upon information
obtained since June, 2015, the DEA began
investigating Samson Primm for drug trafficking
and money laundering offenses.
18. The DEA received information that Primm
was scheduled for one-way air travel from Las
Vegas, Nevada (LAS), to Cleveland, Ohio (CLE),
on March 20, 2016.
19. At approximately 4:50 p.m. on March 20,
2016, at the CLE, a DEA Special Agent observed
Primm deplane carrying a black backpack. At
approximately 5:09 p.m., Primm retrieved two
(2) large black suitcases and proceeded to the
valet. Upon delivery of his 2015 Infinity QX80
SUV, an attendant placed both suitcases in the
rear cargo area of the vehicle. At approximately
5:45 p.m., Primm departed the CLE.
20. At approximately 6:25 p.m., an officer with
the Lorain Police Department (LPD) conducted
a traffic stop of Primm’s vehicle. The stop - for
window tint violation - occurred in the area of
East 21st Street and East Avenue, Lorain, Ohio.

App. 48
21. The officer made contact with the
owner/operator of the vehicle, who identified
himself as Samson Primm. The officer advised
Primm of the reason for the stop.
22. When asked “where he was headed to this
evening”, Primm stated “a friend’s house”.
However, Primm could not provide an address or
street where the “friend” lived.
23. While the officer was checking Primm’s
window with his tint meter, a second LPD officer
- who had arrived on scene as backup requested that a K-9 officer respond to the scene.
***
25. While a warning citation was being written and within minutes of the request for assistance
- the K-9 officer and his partner “Garp” arrived
on scene. Primm was advised that the K-9 officer
and “Garp” were going to conduct a drug scent
examination of the exterior of his vehicle. Upon
being deployed, “Garp” provided a positive alert
for the odor of controlled substances.
26. After “Garp” alerted on the vehicle, the two
(2) black suitcases, the black backpack, and
another backpack were removed from the
vehicle. All four (4) bags were placed on the
concrete, where “Garp” immediately alerted to a
suitcase. A search of the suitcase was conducted
and 18 separate stacks of money were located.
The stacks of money were held together with
rubber bands.

App. 49
27 . A large amount of currency, in bundles
wrapped with rubber bands, is consistent with
illegal drug trafficking activity.
28. “Garp” also alerted to the black backpack. A
search of the backpack was conducted and a sum
of money was located.
***
30. The total amount of currency recovered was
later determined to be $99,500.00. This
$99,500.00 is a defendant property in the instant
case.
***
32. Following the positive K-9 alerts, Primm had
been advised of his Miranda rights. He said he
understood those rights.
33. Primm claimed to have won the money while
in Las Vegas. An officer asked him “what casino
he stayed at while in Las Vegas” and Primm
said the Cosmopolitan. The officer then asked
Primm if the Cosmopolitan was where he won
the money and Primm said yes.
***
35. The defendant $99,500.00 was transported to
the Lorain Police Department where it was
turned back over to DEA personnel.
***

App. 50
38. Between January, 2014, and August,2016,
Primm lost approximately $59,555.00 while
gambling at the Cosmopolitan of Las Vegas.
Paragraphs 39-48 of the Complaint allege that law
enforcement authorities conducted ten trash pulls at
Primm’s residence. On each occasion, authorities
recovered residual quantities of unburnt marijuana.
Field tests for the presence of marijuana were
conducted with positive results.
49. On June 17, 2016, at approximately 5:00
a.m., law enforcement authorities, including a
DEA Special Agent, conducted surveillance of
Samson Primm at a location in Parma, Ohio. At
approximately 5:35 a.m., Primm exited the
location. He placed two (2) suitcases in the rear
of his 2015 Infinity QX80 SUV and departed the
location. Primm entered onto I-480 at Ridge
Road, Parma.
50. Members of the Ohio State Highway Patrol
(OSHP) participated in this surveillance/
investigation.
51. At approximately 5:49 a.m., an OSHP
sergeant observed Primm’s vehicle traveling
westbound on I-480. The vehicle was traveling at
approximately 85 mph.
52. As Primm’s vehicle exited onto SR 237, it
traveled over the yellow fog line on the left side
of the road. A traffic stop was initiated.
53. An OSHP trooper made a passenger side
approach on the vehicle. While speaking with

App. 51
the driver and only occupant (later identified as
Samson Primm), the trooper detected a faint
odor of raw marijuana from inside of the vehicle.
54. The OSHP trooper explained to Primm the
reason for the traffic stop. Primm denied
speeding.
55. When asked where he was headed, Primm
advised he was going to the airport to fly to
California to watch the [Cleveland Cavaliers vs.
Golden State Warriors NBA Finals Game 7]
basketball game.
56. The OSHP trooper explained to Primm that
he was a canine handler and that he was going
to walk his dog (“Drago”) around the vehicle.
Upon being deployed, “Drago” provided a
positive alert for the odor of controlled
substances.
***
58. The OSHP sergeant and trooper conducted a
search of the vehicle. A glass jar containing
suspected marijuana was located in the center
console. The trooper took the jar back to Primm
and asked him about it. Primm stated that it
had to have been left in the vehicle from one of
his friends.
59. Later, a field test of the suspected marijuana
was conducted with positive results.
60. The OSHP trooper went back and continued
the search. A bundle of U.S. currency, with

App. 52
rubber bands around it, was located in a black
bag on the back seat wrapped in a cloth. The
trooper asked Primm how much money was in
the bag. He stated probably about $9,000.00 but
he was not really sure.
61. The back hatch of the vehicle was opened,
and the two (2) suitcases were observed. In one
of the suitcases, the OSHP sergeant located
bundles of U.S. currency inside of shoes. In the
second suitcase, the OSHP trooper initially
located “a couple” bundles of U.S. currency
inside of pants.
***
64. The vehicle was towed to the Cleveland
Highway Patrol Post and the search of the
vehicle was continued.... In total, l7 bundles of
U.S. currency were recovered.
65. The amount of currency recovered was later
determined to be $107,900.00.... This
$107,900.00 is a defendant property in the
instant case.
66. A DEA task force officer arrived on scene
and took control of the money.
67. Primm was given a receipt for the recovered
currency. Also, Primm was issued a minor
misdemeanor summons for the possession of
marijuana (later dismissed) and a warning for
the speeding violation. Primm was released and
drove away from the post.

App. 53
Paragraphs 68-70 of the Complaint allege that law
enforcement authorities conducted ten trash pulls at
Primm’s residence. On each occasion, authorities
recovered residual quantities of unburnt marijuana.
Field tests for the presence of marijuana were
conducted with positive results.
71. On August 18, 2016, law enforcement
authorities, including members of the DEA
Cleveland Resident Office and members of the
Cleveland Heights and Beachwood Police
Departments, executed state search warrants at
the Huntington Lane, Cleveland Heights, Ohio,
residence of Samson Primm.
72. Samson Primm’s wallet - containing his Ohio
driver’s license and other identification cards was located on the dresser in his bedroom and
his 2015 Infinity QX80 SUV was parked in the
attached garage. Among other things, officers
seized the following items pursuant to the
execution of the search warrants: [over ten
pounds of marijuana, $57,999 in currency,
jewelry, items commonly used in the preparation
of drugs for sale, cellular telephones, and
methylone.]
FINANCIAL INFORMATION
74. Samson Primm has not filed Ohio personal
income tax returns for the years 2012, 2013, and
2015. On his 2014 Ohio personal income tax
return, Primm claimed federal adjusted gross
income of $37,410.00.

App. 54
Paragraphs 75-81 of the Complaint detail purchases
that Primm made between January of 2014 and April
of 2016 that total well over his reported income.
The government filed its complaint in forfeiture on
October 3, 2016, naming the $99,500, $107,900, and
$57,999 seized by law enforcement as defendant
currencies. The government alleges that the seized
currencies are subject to forfeiture pursuant to 21
U.S.C. § 881(a)(6) because they “constitute proceeds
from illegal drug trafficking activities, and/or were
used or were intended to be used in exchange for illegal
controlled substances, and/or were used or were
intended to be used to facilitate illegal drug trafficking
activities.” (Compl. at ¶ 10). Primm, represented by
counsel, filed a verified claim to the defendant
currencies on November 14, 2016. Primm states that he
has an “absolute, and unqualified, interest” in the
seized money and that he was in “in exclusive
possession of these monies when they were seized.”
(Doc. 4 at 1-2).
The government now moves to strike Primm’s claim
for lack of statutory standing under Supplemental
Admiralty and Maritime Claim Rule G(5)(a)(i)(B).
Primm opposes the government’s motion.
LAW AND ANALYSIS
The Supplemental Admiralty and Maritime Claims
Rules govern judicial forfeiture proceedings. United
States v. Currency $267,961.07, 916 F.2d 1104, 1107
(6th Cir. 1990). Pursuant to Rule G(5) of the
Supplemental Rules, persons claiming an interest in
property that is subject to a forfeiture action in rem

App. 55
may file a claim contesting the forfeiture. The claim
must identify the specific property claimed, identify the
claimant and state the claimant’s interest in the
property, be signed by the claimant under penalty of
perjury, and be served on the government. Supp.
Admiralty and Maritime Claim R. G(5)(a)(i)(A)-(D).
To contest a governmental forfeiture action, a
claimant must have both statutory standing and
Article III standing. U.S. v. $515,060.42 in U.S.
Currency, 152 F.3d 491, 497 (6th Cir. 1998). Statutory
standing is established by satisfying the requirements
of Rule G(5) for filing a claim. See id.; see also U.S. v.
$25,982.28 in U.S. Currency, 2015 WL 410590, at *2
(N.D. Ohio Jan. 29, 2015). To establish Article III
standing, the claimant must have a colorable
ownership, possessory, or security interest in at least
a portion of the property. $515,060.42 in U.S. Currency,
152 F.3d at 497.
Because of the danger of false claims, a claimant
cannot satisfy Rule 5(G)(a)(i) with a conclusory
statement of ownership. $25,982.28 in U.S. Currency,
2015 WL 410590, at *1 (citing United States v. Thirtyone Thousand Dollars in U.S. Currency, 2012 WL
5343350, at *4 (E.D. Mich. Oct. 29, 2012) (bald
assertion of ownership does not meet the requirements
of Rule G(5); United States v. Nine Thousand Five
Hundred Dollars in U.S. Currency, 2014 WL 7005129,
at *2 (N.D. Ohio Dec. 10, 2014) (general statement that
claimant is the rightful owner of currency is
insufficient to satisfy Rule G(5)) (other citations
omitted). Similarly, because of concerns about “straw
man” transfers, a claimant cannot demonstrate Article

App. 56
III standing with a claim of “naked possession.”
$515,060.42 in U.S. Currency, 152 F.3d at 498. “When
confronted with mere physical possession of property as
a basis for standing, [the Sixth Circuit] require[s] some
explanation or contextual information regarding the
claimant’s relationship to the seized property.” Id.
When a claimant uses simple physical possession as a
basis for standing, he or she must also allege facts
“regarding how the claimant came to possess the
property, the nature of the claimant’s relationship to
the property, and/or the story behind the claimant’s
control of the property.” Id.
At any time before trial, the government may move
to strike a claim for failure to comply with Rule G(5) or
because the claimant lacks standing. Supp. Admiralty
and Maritime Claim RG(8)(c)(i)(A), (B). Here, the
government moves to strike Primm’s claim to the
defendant currencies, arguing that his bald assertions
of ownership–that he is the “sole, and absolute owner
of the monies, and...was in exclusive possession of
these monies when they were seized”–is insufficient to
establish statutory standing. In opposition, Primm
argues that the seizure of the currency was in violation
of the Fourth Amendment and the Takings Clause of
the Fifth Amendment. He also argues that he has
standing because “a simple claim of ownership,
especially if made under oath is absolutely sufficient to
satisfy all standing issues.” (Doc. 12 at 5).
Primm lacks both statutory standing under Rule
G(5) and Article III standing. His claim is nothing more
than a naked assertion of ownership. Indeed, he admits
as much in his response to the government’s motion to

App. 57
strike when he states that “a simple claim of
ownership... is absolutely sufficient” to establish
standing. His response does not provide any
explanation or contextual information regarding his
relationship to the seized currencies. Specifically, it
does not identify any facts showing how he came to
possess the currencies, the nature of his relationship to
the currencies, or the story behind his control of the
currencies.1 Similarly, his answer does not shed any
light on his claim to ownership. Like his claim and his
response to the government’s motion, the answer
merely states that Primm “swear[s], declare[s], indeed
assert[s] and affirm[s] these various sums of money are
owned, indeed 100% by him. Also, he was in exclusive
and sole possession and control of each, and indeed all,
of the indicated monies, when it was (or they were)
illegally seized from him.” (Doc. 7 at 1).
Accordingly, the government’s Motion to Strike
Claim of Samson Primm (Doc. 6) is hereby GRANTED.2
1

Though the government’s motion put Primm on notice that his
claim is deficient, he does not seek to supplement it.

2

The government may test a claimant’s basis for standing by
issuing special interrogatories directed at “the claimant’s identity
and relationship to the defendant property” pursuant to
Supplemental Rule G(6)(a). Primm does not argue that the
government should have issued such interrogatories before moving
to strike. Moreover, the government should not be put to the
burden of propounding special interrogatories in this situation
because the claimants’ assertions of ownership are too vague to
facilitate the drafting of focused interrogatories. See U.S. v.
$104,250.00 in U.S. Currency, 947 F. Supp. 2d 560, 565-66 (D. Md.
2013) (granting motion to strike before government filed special
interrogatories because “[t]here [was] no way, given such vague

App. 58
Because Primm lacks standing, the Court need not
reach his argument that the defendant currencies were
unlawfully seized in violation of the Fourth
Amendment or the Takings Clause. See, e.g., United
States v. $57,888.00 in Currency, 2011 WL 2972106, at
**2-3 (N.D. Ohio July 11, 2011) (holding that because
claimant lacked standing, court need not reach
claimant’s argument that government did not have
probable cause to seize currency).
IT IS SO ORDERED.
/s/ Patricia A. Gaughan
PATRICIA A. GAUGHAN
United States District Judge
Dated: 1/5/17

notions of [the claimant’s] connection to the seized currency, that
the government could propound focused interrogatories that test
the truthfulness of her claim”).

